Department of the Interior
 Okice of Inspector General




            AUDIT REPORT


   CONTRACTING AND PROCUREMENT
             ACTIVITIES,
   WASHINGTON, D.C., AREA OFFICES,
       NATIONAL PARK SERVICE

              REPORT NO. 00-I-501
                  JUNE 2000
L!.S. Department of the Interior                               Office of Inspector General


                              EXECUTIVE         SUMMARY

                         Contracting and Procurement Activities,
                             Washington, D.C., Area Offices,
                                  National Park Service
                                   Report No. 00-I-501
                                        June 2000


BACKGROUND

The National Park Service CNpS) has three contracting offices in the Washington, D.C., area:
the Washington Office (WASO), the Washington Administrative Program Center Office
(WAPC), and the National Capital Regional Office (NCR). WASO’s contracting office
awards NPS-wide contracts; WAPC’s contracting office awards contracts supporting NPS
headquarters offices in the Washington, D.C., area; and NCR’s contracting office awards
contracts for NPS’s National Capital Region, 13 parks, and park police activities. From
October 1996 through March 1999, NPS’s D.C. area procurement offices reported that they
had initiated 443 contract actions, with obligations totaling $22,360,725.

OBJECTIVE

The objective of the audit was to determine whether NPS personnel at the three offices
awarded and administered contracts in compliance with laws and Federal and Department
of the Interior policies and procedures.

RESULTS IN BRIEF

Overall, we found that NPS’s Washington, D.C., area contracting and procurement offices
awarded and administered most contracts in compliance with laws and Federal and
Department of the Interior policies and procedures. However, one office, WAPC, acquired
goods without contract authorization in 2 of the I8 contracting actions we reviewed for this
office, and all three offices did not enter all procurement actions into NPS’s automated
procurement system. As a result, NPS spent $80,514 for unauthorized purchases. Also,
because we found obligations of at least $25.8 million that were not recorded in NPS’s
automated procurement system, we concluded that Departmental officials did not have
complete and reliable data on NPS’s procurement actions.

According to procurement officials, WAPC acquired goods outside the scope ofthe contract
because its technical representative approved invoices for payment without requesting that
the contracting officer review the invoices to ensure that the acquired supplies or services
were within the scope ofthe contract. Also, all three contracting and procurement offices did
not enter procurement information into the procurement system because NPS had not




                                                                                                3
                                                                                                ‘\
implemented    sufficient controls to ensure that the data were reconciled to each office’s
procurement   tiles and to procurement data in XPS’s official financial system.

RECOMMENDATIONS

We recommended that the Director, NPS, ensure that all invoices received under contracts
awarded by WAPC are reviewed and approved by the contracting officer before the invoices
are submitted to the finance office for payment and ensure that all procurement actions are
entered into NPS’s automated procurement system.

AUDITEE       COMMENTS      AND OIG EVALUATION

NPS agreed with the report’s two recommendations.     Based on the response. we considered
both recommendations   resolved and implemented.




                                             2
                                                                        E-IN-NPS-004-99-D


             United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                        Washington.D.C. 20240




                                     AUDIT REPORT

Memorandum

To:      Assistant   Secretary    for Fish and Wildlife and Parks

From:



Subject: Audit Report on Contracting and Procurement Activities,     Washington    D.C., Area
         Offices? National Park Service (No. 00-I-501 >


                                    INTRODUCTION

This report presents the results of our audit of three National Park Service (NPS) contracting
and procurement offices in the Washington. D.C.. area. The objective of the audit was to
determine whether NPS personnel at the three offices awarded and administered contracts
in compliance with laws and Federal and Department of the Interior policies and procedures.


BACKGROUND

NPS has three contracting offices in the Washington, D.C., area: the Washington Office
(WASO), the Washington Administrative Program Center Office (WAPC), and theNational
Capital Regional Office (NCR). WASO’s contracting office, which has six employees,
awards NPS-wide contracts. WAPC’s contracting offrce, which has four employees, awards
contracts supporting NPS headquarters offices in the Washington. D.C., area. NCR’s
contracting office. which has 11 employees, awards contracts for NPS’s National Capital
Region, 13 parks, and park police activities.

The Federal Acquisition Regulation (48 CFR) and the Departmental iManual (401 DM,
“Interior Acquisition Regulation System”) govern NPS’s procurement activities. The Federal
Acquisition Regulation provides guidance on requesting and authorizing purchases (48 CFR
42.3) soliciting bids and awarding contracts (48 CFR 5.002 and 14.409-l) determining
whether contracting actions should be awarded competitively or to designated sources (48


                                                  3
CFR 6.202 and 6.301), administering contracts (48 CFR 1.602), modifying contracts (48
CFR 43.202), and closing out contract tiles (48 CFR4.804). The Departmental Manual (401
DM 140 1-1452) provides Departmentwide procurement policy and procedures that
supplement and implement the Federal AcquisitionRegulation (48 CFR 1.302). The Manual
includes provisions for planning acquisitions (401 DM 1407); soliciting bids (401 DM
1405); fostering competition (40 1 DM 1406); determining contract type (for example, f=ed-
price or cost) and method (for example, simplified acquisitions and sealed bids)(401 DM
1416); responding to protests, disputes, and appeals (401 DM 1433); modifying contracts
(401 DM 1443); entering procurement information into the Interior Procurement Data
System (IPDS) (401 DM 1404), an automated database used by Departmental officials to
track and monitor procurement activity; and terminating contracts (401 DM 1449). Also, the
Contracting Officer’s Technical Instructions, which are issued periodically by the
Department’s Office of Acquisition and Property Management, provide guidance on issues
such as environmental contracting initiatives, contracting and procurement approval
delegations, and affirmative action requirements.

SCOPE OF AUDIT

We reviewed contracting and procurement actions at NPS’s Washington, D.C., offices that
were transacted from October 1996 through March 1999. To accomplish our objective, we
reviewed Federal, Departmental, and NPS procurement regulations and guidance; reviewed
and analyzed NPS financial reports, procurement files, invoices, and payment records; and
interviewed NPS and Departmental procurement officials. From IPDS, we also selected for
review procurements that were recorded as having been transacted during the scope of the
audit as follows:

                                CONTRACT           CONTRACT          OBLIGATIONS
                                 ACTIONS            ACTIONS            THROUGH              OBLIGATIONS
           OFFICE               INITIATED           AUDITED           MARCH 1999              AUDITED


 WAS0                                 11                  9                $1,345.551           $1318.917

 WAPC                                 51                  18                   2.913.141         I .72 1.864

 NCR                                 $?l_l                0                    18.102.033        6.107.499

       Total                                                              $22360.725            $9,148.280


On a judgmental basis, we selected contract actions’ for review from IPDS as follows:

          - At WAPC and NCR, we selected high dollar value items from a variety of
contract types for review. For example, our sample at WAPC consisted of four contract


’ Contract actions included contract awards, task orders, and modifications.

                                                      4
modifications, nine task orders under indefinite delivery contracts, three full and open
competitive awards, and two awards made to small disadvantaged businesses.’

      - At NCR, we selected for review 20 contract modifications, 10 task orders placed
under indefinite delivery contracts, 3 full and open competitive awards, 3 contracts awarded
under other than full and open competition (sole source), 2 awards made to small
disadvantaged businesses, and 2 awards made to other small businesses.

      - At WASO, we selected for review five contract modifications, three small and
disadvantaged business contracting actions, and one task order placed under an indefinite
delivery contract.

We reviewed 67 procurement actions, for which funds of about $9.1 million were obligated
(representing 404 invoices that had been processed for payments of $7.8 million), to
determine whether NPS had taken the following actions: (1) properly prepared and
authorized requisitions, including obtaining the required approvals, listing the funding
sources, and certibing that funds were available for obligation; (2) used appropriate contract
types; (3) solicited, advertised, and made competitive awards as required; (4) received
certifications from the Small Business Administration for small business awards; (5)
obtained goods and services within the scope of the contracts; and (6) maintained complete                        .
contract files and related documentation, which included ratified contracts, properly prepared
and authorized contract modifications, designations of technical representatives, and
contractor invoices approved for payment by the contracting officer and the technical
representatives; and (7) closed out contracts upon completion.

We also determined whether all procurement actions w-ere entered into IPDS by reconciling
procurement data from IPDS with procurement data in NPS’s official financial accounting
system and with data in procurement files. We performed the reconciliation after we learned
that all three contracting and procurement offices had not entered all purchases into IPDS.
(This issue is discussed further in the Results of Audit section of this report.) Because the
database from which we made our sample selection was incomplete, our finding and
conclusions may not be based on a representative sample of the procurements transacted at
the three Washington, D.C., contracting offices.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the audit, we evaluated the system of internal controls
over NPS’s Washington, D.C., contracting and procurement activities to the extent necessary



‘According to the Federal Acquisition Institute’s “Glossary of Acquisition Terms,” a contract modification is
any written change in the terms of the contract; an indefinite delivery contract is a contract that may be used
to acquire supplies or services when the exact times/quantities of future deliveries are not kno)vn; a full and
open competitive a\vard is one in which all responsible sources arc permitted to compete for the contract; and
a small, disadvantaged business award is one that is made to a firm that is certified as such by the Small
Business .4dministration.

                                                       5
to accomplish the objective. We found internal control weaknesses in NPS’s oversight of
WAPC contracting activity and in the offices’ recording of procurement data in IPDS. Our
recommendations, if implemented, should improve the internal controls in these areas.

In addition, we reviewed the Departmental Report on Accountability for fiscal year 1998,
which included information required by the Federal Managers’ Financial Integrity Act of
1982, and NPS’s annual assurance statement on management controls for fiscal year 1998.
We determined that none of the reported weaknesses were within the scope of our audit.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports on the
contracting and procurement activities of NPS’s Washington, D.C.. area offices. In April
2000, however, the Office ofInspector General issued the report “Administration ofUniform
Supply Contract, National Park Service” (No. 00-I- 319), which pertained to a WASO-
awarded contract for employee uniforms. The report stated that NPS needed to “improve its
methods of contracting for employee uniforms” and that NPS had no permanently assigned
manager to oversee the uniform contract. The report also stated that NPS “had not
established (1) a process that provided reasonable assurance that invoices (billings from the
contractor) were accurate before payment was made, (2) sufficient controls over financial
activity associated with the contract, or (3) limitations on its liability for compensating the
contractor for discontinued stock.” NPS concurred with the report’s two recommendations,
which were considered resolved.

                              RESULTS OF AUDIT
Overall, we found that NPS’s Washington, D.C., area contracting and procurement offices
awarded and administered most contracts in compliance with laws and Federal and
Department of the Interior policies and procedures. However, one office, WAPC, acquired
goods without contract authorization in 2 of the 18 contracting actions we reviewed for this
office, and all three contracting and procurement offices did not enter all procurement actions
into IPDS. Federal and Departmental procedures require Federal procurement agents to
perform duties such as formally designating a contracting officer’s technical representative,
designating the types of goods and services to be procured in contract documents, approving
contractor invoices for payment, and entering procurement information into IPDS.
According to procurement officials, WAPC acquired goods outside the scope of the contract
because its technical representative approved invoices for payment without requesting that
the contracting officer review the invoices to ensure that the acquired supplies or services
were within the scope of the contract. Also. all three contracting and procurement offices did
not enter procurement information into IPDS because NPS had not implemented sufficient
controls to ensure that IPDS data were reconciled to each office’s procurement files and to
procurement data in NPS’s official financial system. As a result, NPS spent $80.5 14 for
unauthorized purchases (see Appendix 1). In addition, NPS unnecessarily spent $7.916,
which is the amount attributable to the contractor’s administrative charges for making the
purchases on NPS’s behalf. Further: Departmental officials did not have complete and


                                               6
reliable data on NPS’s procurement actions, since we found obligations of at least $25.8
million that were not recorded in IPDS (applicable to 35 contracts).

      Acquisition   of Goods.    WAPC bought information technology items, including
routers: software, hardware accessories, and computer supplies, totaling $8O,S14 under two
contracts that provided for the acquisition of data processing personnel services for the
“development, maintenance, system operation, facilities management and associated
requirements exceeding that which can be met by the established personnel funding levels
of the National Park Service.” Although neither contract authorized the contractors to
acquire and bill NPS for equipment and supplies, the contractors submitted invoices totaling
$80,5 14, which NPS paid. In addition, invoices related to one of the two contracts included
a 25 percent administrative fee, totaling $7,916, for purchases made by the contractor on
NPS’s behalf. We believe that NPS would not have paid these administrative fees had it
bought the items, which were off-the-shelf computer items, directly from the vendors.

These unauthorized purchases occurred because WAPC contracting and program officials
did not comply lvith the Departmental Manual (401 DM 1401.670.5(2)), which states that
technical representatives are “not authorized under any circumstances to obligate, in any way,
the payment of money by the Government.” In addition, a letter designating technical
representatives for one of these contracts required that both the contracting officer and the
technical representative approve the invoices before submitting the invoices to the finance
department for payment. NPS procurement officials said that they permitted technical
representatives to submit the approved invoices directly to the finance office without the
benefit of the contracting officer’s approval to prevent late-payment charges. (Late-payment
charges result from payments that are made 30 daq-s after receipt of the invoice.)

       Procurement    Data System Entries.      NPS’s Washington, D.C., contracting and
procurement offices did not enter all procurement information into IPDS, as required by
Departmental acquisition regulations. We found 35 contracts that were awarded from
October 1996 through March 1999, with obligations totaling $25,835,737, which were not
entered into IPDS. The Departmental Manual (401 DM 1404.602) requires procurement
officials to use the IPDS reporting manual to enter procurement actions into IPDS by
completing a specified form. While following up on contracting deficiencies that our Central
Regional Office had identified in its audit (see Prior Audit Coverage of this report) of an
NPS employee uniform contract that had been awarded by WASO, we found that IPDS’s
procurement records were incomplete. We Lvere unable to find the uniform contracting
actions in IPDS, although these procurements were entered into NPS’s automated financial
accounting system.

Procurements Lvere entered into NPS’s financial accounting system but were not entered into
IPDS because KPS did not reconcile IPDS data Lvith financial accounting system data and
with information in procurement office files. Also, NPS had not conducted internal cor$rol
or management reviews to evaluate the completeness of IPDS data. NPS procurement
officials said that deficiencies in IPDS data should be corrected when NPS implements its
new procurement system, the Interior Department EIectronic Acquisition System, in fiscal
year 2000.
Recommendations

We recommend that the Director of NPS:

        1. Ensure that all invoices received under contracts awarded by NPS’s Washington
Administrative Program Center are reviewed and approved by the contracting officer before
the invoices are submitted to the finance office for payment.

        2. Ensure that all procurement actions are entered into IPDS.

NPS Response and Office of Inspector General Reply

In the May 23,2000, response (Appendix 2) to the draft report from the NPS Director, NPS
concurred with the report’s two recommendations. Based on the response, we consider the
recommendations resolved and implemented.

Since the report’s recommendations are considered resolved and implemented, no further
response to this report is required (see Appendix 3).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.
                                                      APPENDIX 1

           CLASSIFICATION   OF MONETARY    AMOUNTS


                                    Funds To Be Put
           Description               To Better Use

Unauthorized purchases                 $80,5 14




                               9
                                                                                             APPENDIX    2
    _     .
l




                             United States Department of the Interior
                                                NATIONAL    PARK SERVICE
                                                     1849CSt.reet,N.W.
                                                   Washington,D.C.20240
    IN REPLY REFER ‘Nlz

                                                    flAY.2.3
                                                         ZOoij
          A5423(2603)

          Memorandum

          To:                Acting Assistant Inspector General for Audits

          From:

          Subject:           Draft Audit Report on Contracting and Procurement Activities,
                             Washington, D.C. Area Offices, National Park Service
                             (Assignment No. E-IN-NPS-004-99-D)

              The following is the National Park Service (NPS) response to the subject Office of the
              Inspector General (OIG) draft audit report. We concur with the findings, the
              recommendations, and the determination of unauthorized purchases totaling $80,5 14.
              Let me make the observation that the Washington Administrative Program Center
              (WAPC) has made some progress as stated below to cure the problem of another
              program official’s unauthorized purchases. The National Capital Regional Contracting
              Office had no comment on the draft report.

              Recommendation l- Ensure that all invoices received under contracts awarded by NPS’s
              Washington Administrative Program Center are reviewed and approved by the
              contracting officer before the invoices are submitted to the finance offrce for payment.

              The WAPC Contracting Officer issued a memorandum via electronic mail on
              October 12, 1999, advising that all contract invoices were to be approved by a warranted
              contracting offrcer before being submitted for payment. A copy of the transmittal is
              attached.

              Recommendation     2 - Ensure that all procurement actions are entered into the IPDS.

              All missing SF279 procurement transactions for the Washington Office have been
              entered into the IPDS system. These actions have been converted to the new IDEAS-PD
              system by the National Business Center (NBC). The IDEAS-PD system allows for
              completion of the process from contract award through reporting, all in one system. The
              system enables SF279 reports to be created and tracked. The Servicewide Acquisition
              Policy Office will also be able to track missing reports in this system.

              Thank you for the opportunity to review and comment on the draft report.

              Attachment

              [Note:      Attachment   not included by Office of the Ins'pector General]
                                                        APPENDIX 3



       STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
         Reference            Status          Action Required

    1 and 2              Implemented.   No further action is required.




                               11
                   JLLEGAL OR WASTEFUL ACTIVlTIES
                        SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR  GENERAL


                     Internet       Complaint     Form Address




                   Within     the Continental       United States

U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
1849 C Street, N. W.                                     I-800-424-5081 or
Mail Stop 5341 - MIB                                     (202) 208-5300
Washington, D.C. 20240-0001
                                                         TDD for hearing impaired
                                                         (202) 208-2420



                  Outside       the Continental        United States

                                    Caribbean   Region

U.S. Department of the Interior                          (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
_%rlington, Virginia 22203

                                      Pacijic Region

U.S. Department of the Interior                          (67 1) 647-6060
Office of Inspector General
Guam Field Office
115 Chalan San Antonio
Baltej Pavilion, Suite 206
,Agana, Guam 9691 I
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-5081

FTS/Conm~ercial Numbers
     (202) 208-5300
     TDD (202) 208-2420
